No.

IN THE
SUPREME COURT OF THE UNITED STATES

JEROME CAPELTON,
Petitioner
v.
UNITED STATES,
Respondent
CERTIFICATE OF SERVICE
I, Samia Hossain, hereby certify that on this 13th day of October 2020, I
served the Petition for a Writ of Certiorari, Motion to Proceed In Forma Pauperis,
Affidavit of Timely Filing by Mail, and this Certificate on all parties to be served.
In accordance with Rule 29.3 of the Supreme Court Rules, said service has
been made by sending one copy by first class mail, postage pre-paid to:
Donald Lockhart, AUSA
United States Attorney’s Office,
District of Massachusetts
1 Courthouse Way, Suite 9200
Boston, MA 02210

Noel Francisco
Solicitor General
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

_________________
Samia Hossain
Research & Writing Attorney
Federal Public Defender Office
51 Sleeper Street, 5th Floor
Boston, MA 02210
(617) 223-8061
October 13, 2020

